APPENDICES

TABLE OF CONTENTS
A. Ninth Circuit Opinion, July 23, 2019 ....... A1-A31
B. Ninth Circuit Memorandum,
July 23,2019................................................. B1-B4
C. District Court Order Granting
Defendants’ Motion For Summary
Judgment And Denying Plaintiffs’
Cross-Motion For Summary
Judgment, September 29, 2017 .................. C1-C8
D. Ninth Circuit Order denying Petition
for Rehearing and Rehearing en banc,
September 24, 2019 .......................................... D1
E. Court of Appeal of California, Sixth
Appellate District, April 2, 2015 .............. E1-E21
F. Constitutional and Statutory
Provisions involved...................................... F1-F5

APPENDIX A
930 F.3d 1123
United States Court of Appeals for the Ninth
Circuit
Lori RODRIGUEZ, et al., Plaintiffs-Appellants,
v.
CITY OF SAN JOSE; SAN JOSE POLICE
DEPARTMENT; STEVEN VALENTINE,
Defendants-Appellees.
No. 17-1714
Argued January 14, 2019
Decided July 23, 2019
Before: J. Clifford Wallace, Richard R. Clifton, and
Michelle T. Friedland, Circuit Judges.
[*1127] Opinion by Judge Friedland
FRIEDLAND, Circuit Judge:
Immediately after detaining Edward Rodriguez for
a mental health evaluation in response to his wife Lori
Rodriguez’s 911 call, San Jose police officer Steven
Valentine seized twelve firearms from the Rodriguez
residence without a warrant.1 The City of San Jose
(“the City”) later petitioned in California Superior
1 Because

Lori and Edward have the same last name, we refer
to them by their first names.

A2

Court to retain the firearms under California Welfare
& Institutions Code § 8102 on the ground that the
firearms would endanger Edward or another member
of the public. Lori objected that the confiscation and
retention of the firearms, in which she had ownership
interests, violated her Second Amendment right. The
court granted the City’s petition over Lori's objection.
Lori appealed that decision, and the California Court
of Appeal affirmed.
After Lori re-registered the firearms in her name
alone and obtained clearances to own the guns from
the California Department of Justice (“California
DOJ”), the City still declined to return the guns. Lori
sued the City, the San Jose Police Department, and
Officer Valentine (collectively, “Defendants”) in
federal district court. She argued that the seizure and
retention of the firearms violated her rights under the
Second, Fourth, Fifth, and Fourteenth Amendments,
and that she was also entitled to return of the firearms
under California Penal Code § 33800 et seq. The
district court rejected these arguments and
accordingly granted summary judgment for
Defendants. Lori appealed. We hold that Lori’s Second
Amendment claim is barred by issue preclusion and
that her Fourth Amendment claim fails on the merits.
We therefore affirm.2

2 We

affirm the grant of summary judgment on Lori’s Fifth
Amendment, Fourteenth Amendment, and state law claims in a
concurrently filed memorandum disposition.

A3

I.
A.
Late one night in January 2013, Lori called 911 to
ask the San Jose Police Department to conduct a
welfare check on her husband, Edward. This was not
the first time that Lori had made such a call—San Jose
police officers had been to the Rodriguez home on prior
occasions because of Edward’s mental health
problems. Before they arrived, Officer Valentine and
the other responding officers learned that there were
guns in the home.
At the Rodriguez home, Officer Valentine found
Edward ranting about the CIA, the army, and people
watching him. Edward also mentioned “[s]hooting up
schools” and that he had a “gun safe full of guns.”
When asked if he wanted to hurt himself, Edward
attempted to break his own thumb.
[*1128] Concluding that Edward was in the midst
of an acute mental health crisis that made him a
danger to himself and others, Officer Valentine and
other officers on the scene decided to seize and detain
him pursuant to California Welfare & Institutions
Code § 5150 for a mental health evaluation. Section
5150 allows an officer, upon probable cause that an
individual is a danger to himself or another because of
a mental health disorder, to take the person into
custody and place him in a medical facility for 72-hour
treatment and evaluation. Cal. Welf. & Inst. Code §
5150 (2013); see also Cal. Welf. & Inst. Code § 5150(a)
(2019) (same). The officers detained Edward and
placed him in restraints in an ambulance to travel to
a nearby hospital for a psychological evaluation.

A4

After removing Edward from the home, the officers
spoke with Lori, who confirmed that there were
firearms in the home in a gun safe. Officer Valentine
informed her that, pursuant to California Welfare &
Institutions Code § 8102, he would have to confiscate
the guns. Section 8102(a) requires law enforcement
officers to confiscate any firearm or other deadly
weapon that is owned, possessed, or otherwise
controlled by an individual who has been detained
under California Welfare & Institutions Code § 5150.
With Lori providing the keys and the combination
code, the officers opened the safe and found twelve
firearms, including handguns, shotguns, and semiautomatic rifles. One of the firearms was a personal
handgun registered to Lori alone, which she had
obtained prior to marrying Edward. The other eleven
were either unregistered or registered to Edward. Lori
gathered cases for the guns while the officers packed
up and documented them. She specifically objected to
the removal of her personal handgun, but the officers
confiscated it along with the other eleven firearms.
Meanwhile, in the ambulance, Edward repeatedly
broke the restraints holding him to a gurney. Once at
the hospital, Edward was evaluated and determined
to be a danger to himself, so he was admitted.3 He was
discharged approximately one week later.

3 Under

California law, once Edward was taken into custody
under § 5150 and then admitted to the hospital under §§ 5151
and 5152 because he was determined to be a danger to himself,
he became a “prohibited person.” Cal. Welf. & Inst. Code §
8103(f)(1) (2013); see also Cal. Penal Code §§ 30000, 30005. As a
prohibited person, he could not own, possess, control, receive, or
purchase any firearm for a period of five years following his

A5

B.
One month after the officers confiscated the
firearms, the City filed a petition in California
Superior Court under California Welfare &
Institutions Code § 8102(c), seeking an order of
forfeiture based on a determination that the guns’
return would likely endanger Edward or others.
Edward did not respond to the petition, but Lori
intervened, asserting outright ownership of her
personal handgun and community property ownership
of the other firearms. Lori argued that the court had
no power to interfere with her Second Amendment
right to keep and bear arms because, even if Edward
was prohibited from possessing and owning guns, she
was not prohibited. In support, she emphasized that
she had obtained a notice of eligibility to own and
possess guns from the California DOJ Bureau of
Firearms. Lori further represented to the court that, if
returned, the guns would be secured in her gun safe
and that she had changed the combination code so that
Edward would not have access to them. The return of
the guns, she contended, therefore would not present
a danger to Edward or others.
[*1129] The court granted the City’s petition. The
court acknowledged that Lori could legally “walk . . .
into any gun store and qualify to buy a handgun . . .
and put [it] in that gun safe.” But it held that the City
was nevertheless authorized to take the “low hanging
fruit” of the guns the Rodriguezes already owned,
irrespective of Lori’s ability to buy more, because of the
danger that Edward presented. Stating that it was not
release from the hospital. Cal. Welf. & Inst. Code § 8103(f)(1)
(2013).

A6

“ignoring [Lori’s] Constitutional Rights,” the court
concluded that it was not appropriate to return the
firearms given the public safety concerns at stake.
Lori appealed to the California Court of Appeal,
arguing that the superior court order was not
supported by substantial evidence of danger and that
it violated her Second Amendment right to keep and
bear arms. In April 2015, the appellate court affirmed.
City of San Jose v. Rodriguez, No. H40317, 2015 Cal.
App. Unpub. LEXIS 2315, 2015 WL 1541988 (Cal. Ct.
App. Apr. 2, 2015) (“Rodriguez I”). The court held that
there was substantial evidence supporting the
superior court’s determination that returning the guns
to the Rodriguez home would likely result in
endangering Edward or others. 2015 Cal. App. Unpub.
LEXIS 2315, 2015 WL 1541988, at *5-6, 9. On the
constitutional issue, the court held that Lori had not
demonstrated a viable Second Amendment claim
under the United States Supreme Court’s case law.
2015 Cal. App. Unpub. LEXIS 2315, 2015 WL
1541988, at *6-9. The court also explained that Lori
had “other viable options,” including selling or storing
the guns outside the home, and “that the procedure
provided by [California Penal Code] section 33850 et
seq. for return of firearms in the possession of law
enforcement remains available to Lori.”4 2015 Cal.

4 The

recovery procedures in California Penal Code § 33850 et
seq. were expressly incorporated into California Welfare &
Institutions Code § 8102 while Lori’s state court appeal was
pending. Rodriguez I, 2015 Cal. App. Unpub. LEXIS 2315, 2015
WL 1541988, at *8. The California Court of Appeal ordered
supplemental briefing on the implications for Lori’s claims of that
statutory change and of the availability of procedures under
California Penal Code § 33850 et seq. for the return of firearms.

A7

App. Unpub. LEXIS 2315, 2015 WL 1541988, at *7-8.
Ultimately, the court concluded “that Lori ha[d] failed
to show that the trial court’s . . . order violate[d] the
Second Amendment.” 2015 Cal. App. Unpub. LEXIS
2315, 2015 WL 1541988, at *9.
Lori did not seek review in the California Supreme
Court or the United States Supreme Court.
Following the California Court of Appeal’s decision,
Lori took the necessary steps under Penal Code §§
33850-65 to become eligible for the City to return her
the firearms. She changed the registration and
ownership so that all twelve guns were in her name
only and obtained gun release clearances from the
California DOJ. She then asked the City again to
return the guns. The City denied the request one
month later.
Lori subsequently sued Defendants under 42
U.S.C. § 1983 in the United States District Court for
the Northern District of California. Lori was joined in
the lawsuit by co-plaintiffs the Second Amendment
Foundation, Inc. (“SAF”) and the Calguns Foundation,
Inc. (“CGF”) (collectively, “Plaintiffs”). The Complaint
alleged violations of Lori’s Second, Fourth, Fifth, and
Fourteenth Amendment rights, as well as a state law
claim under California Penal Code § 33800 et seq.
Plaintiffs sought return of the guns, damages to
compensate Lori, and injunctive and declaratory relief
to prevent future violations of Lori’s rights and the
rights of the organizations’ members.
Defendants moved for summary judgment, raising
various defenses including that SAF and CGF lacked
Article III standing, but not including estoppel
defenses to any of Plaintiffs’ federal law claims. The

A8

district court granted summary judgment to
Defendants. The court [*1130] rejected Defendants’
argument that SAF and CGF lacked Article III
standing but ruled that all of Plaintiffs’ claims failed
on the merits.
II.
We review de novo a district court’s summary
judgment. Longoria v. Pinal County, 873 F.3d 699,
703-04 (9th Cir. 2017). We may affirm on any ground
supported by the record, including grounds the district
court did not reach. Or. Short Line R.R. Co. v. Dep’t of
Revenue Or., 139 F.3d 1259, 1265 (9th Cir. 1998).
A.
The California state courts addressed Lori’s Second
Amendment claim at both the trial and appellate
stages, concluding that the seizure and retention of
Lori’s firearms did not violate her right to keep and
bear arms. For reasons of comity, we apply issue
preclusion to bar our reconsideration of her Second
Amendment claim, even though Defendants did not
brief that defense in the district court.5

5 Although

the Rooker-Feldman doctrine, which limits our
authority to review the judgments of state courts, sometimes
overlaps with preclusion doctrine, see Noel v. Hall, 341 F.3d 1148,
1160-61 (9th Cir. 2003), we have assured ourselves that RookerFeldman does not deprive us of jurisdiction here. Lori did not
name the California state courts or any of its judges as
defendants in her Complaint. Nor does she seek relief from the
state court judgment, which authorizes the City to keep the guns
but does not require the City to do so. Rather, Lori complains “of
a legal injury caused by an adverse party.” Id. at 1163. The
Rooker-Feldman doctrine accordingly does not apply. See id. at
1161-64.

A9

The United States Constitution provides that “Full
Faith and Credit shall be given in each State to the
public Acts, Records, and judicial Proceedings of every
other State.” U.S. Const. art. IV, § 1. As implemented
under 28 U.S.C. § 1738, federal courts must “give to a
state-court judgment the same preclusive effect as
would be given that judgment under the law of the
State in which the judgment was rendered.” Migra v.
Warren City Sch. Dist. Bd. of Educ., 465 U.S. 75, 81,
104 S. Ct. 892, 79 L. Ed. 2d 56 (1984). This
requirement has equal force in cases brought under 42
U.S.C. § 1983. See Allen v. McCurry, 449 U.S. 90, 9798, 101 S. Ct. 411, 66 L. Ed. 2d 308 (1980).
We therefore look to California law, which defines
two main forms of preclusion: claim, also known as res
judicata; and issue, also known as collateral estoppel.
Claim preclusion “provid[es] that ‘a final judgment
forecloses successive litigation of the very same claim,
whether or not relitigation of the claim raises the same
issues as the earlier suit.’”6 White v. City of Pasadena,
671 F.3d 918, 926 (9th Cir. 2012) (quoting Taylor v.
Sturgell, 553 U.S. 880, 892, 128 S. Ct. 2161, 171 L. Ed.
2d 155 (2008)). “Issue preclusion, in contrast, bars
successive litigation of an issue of fact or law actually
litigated and resolved in a valid court determination
6 “Claim”

in this California state law context refers to a “‘cause
of action’ [that] is comprised of a ‘primary right’ of the plaintiff, a
corresponding ‘primary duty’ of the defendant, and a wrongful act
by the defendant constituting a breach of that duty.” Mycogen
Corp. v. Monsanto Co., 28 Cal. 4th 888, 123 Cal. Rptr. 2d 432, 51
P.3d 297, 306 (Cal. 2002). In this opinion, we refer to Lori’s
federal causes of action as “claims” without intending to suggest
that her separate federal causes of action would necessarily count
as separate “claims” for purposes of California state law
preclusion.

A10

essential to the prior judgment, even if the issue recurs
in the context of a different claim.” Id. (quoting Taylor,
553 U.S. at 892).
Defendants failed to raise either form of preclusion
in response to Lori’s Second Amendment [*1131]
claim in their summary judgment briefing in the
district court or in their principal brief to our court.
Only after we requested supplemental briefing on
preclusion did the parties address it. Defendants’
omissions would typically effect a forfeiture. See AE ex
rel. Hernandez v. County of Tulare, 666 F.3d 631, 638
(9th Cir. 2012); Clements v. Airport Auth. of Washoe
Cty., 69 F.3d 321, 328-30 (9th Cir. 1995).7
We may, however, overlook forfeiture to consider
preclusion sua sponte in some circumstances. See
Clements, 69 F.3d at 328-31. We determine whether to
do so by balancing the public and private interests,
and we are more likely to overlook forfeiture where the
public interests outweigh the private. Id. at 330.
This balancing in large part turns “upon the type
of preclusion at stake” and generally favors forgiving
forfeiture of issue preclusion more often than claim
preclusion. Id. Both doctrines vindicate private
interests in repose and in avoiding the cost of
duplicative litigation. And both serve the public
interest in conserving judicial resources by ensuring
that courts do not revisit matters that were already
litigated—or should have been. But issue preclusion
7 We

recognize that Hernandez and Clements use the term
“waiver,” not “forfeiture.” But under our recent en banc decision
in United States v. Depue, 912 F.3d 1227, 1232-33 (9th Cir. 2019)
(en banc), we understand those cases to be describing what we
now call a forfeiture.

A11

advances an additional public interest: “preserving the
acceptability of judicial dispute resolution against the
corrosive disrespect that would follow if the same
matter were twice litigated to inconsistent results.” Id.
(quoting 18 Charles Allen Wright et al., Federal
Practice and Procedure § 4403). Claim preclusion does
not similarly prevent inconsistent results because it
“bars the litigation of issues never before tried.” Id.
Given that applying issue preclusion protects more
public interests, we have more reason to overlook
forfeitures of that defense. See id.
Among Lori’s federal claims, her argument that the
seizure and retention of her firearms violated her
Second Amendment right is the only one that she
pressed before the state court. Accordingly, it is the
only one to which issue preclusion could apply. Given
the significant public interests in avoiding a result
inconsistent with the California Court of Appeal’s
decision on an important constitutional question and
in not wasting judicial resources on issues that have
already been decided by two levels of state courts, to
the extent that relitigation of Lori’s Second
Amendment argument would be precluded in
California court, we will forgive Defendants’ forfeiture
and hold that “relitigation of those issues in federal
court is precluded” as well. Id.
Under California law, issue preclusion applies
when six criteria, named the “Lucido factors” after the
California Supreme Court’s seminal case on the
doctrine, Lucido v. Superior Court, 51 Cal. 3d 335, 272
Cal. Rptr. 767, 795 P.2d 1223 (Cal. 1990), are satisfied:
(1) “the issue sought to be precluded from
relitigation must be identical to that decided in
a former proceeding”; (2) the issue to be

A12

precluded “must have been actually litigated in
the former proceeding”; (3) the issue to be
precluded “must have been necessarily decided
in the former proceeding”; (4) “the decision in
the former proceeding must be final and on the
merits”; (5) “the party against whom preclusion
is sought must be the same as, or in privity
with, the party to the former proceeding”; and
(6) application of issue preclusion must be
consistent with the public policies of [*1132]
“preservation of the integrity of the judicial
system, promotion of judicial economy, and
protection of litigants from harassment by
vexatious litigation.”
White, 671 F.3d at 927 (quoting Lucido, 795 P.2d at
1225-27). Here, the California Court of Appeal’s
opinion was a final decision on the merits, so the
fourth factor is clearly satisfied. Whether Lori’s
Second Amendment argument is issue precluded in
this case turns on the remaining factors.
The first three factors can be addressed together,
as they all involve assessing the California Court of
Appeal’s Second Amendment analysis and the
similarity of the argument it addressed to the
argument advanced here. As she does now, Lori
contended in the state court proceedings that
Defendants were violating her “right to keep and bear
arms” by refusing to return the firearms because of her
husband’s prohibited status, even though “she was not
prohibited from acquiring or possessing firearms and
had promised to take all steps required under
California law to secure the firearms in a gun safe.”
Rodriguez I, 2015 Cal. App. Unpub. LEXIS 2315, 2015
WL 1541988, at *2, 6-7. The California Court of Appeal

A13

expressly rejected this argument and the notion that
the Second Amendment required returning her the
guns. Highlighting that Lori had not pointed to any
authority to the contrary, the court stated that the
Supreme Court’s decisions in District of Columbia v.
Heller, 554 U.S. 570, 128 S. Ct. 2783, 171 L. Ed. 2d 637
(2008), and McDonald v. City of Chicago, 561 U.S. 742,
130 S. Ct. 3020, 177 L. Ed. 2d 894 (2010), suggested
that the Second Amendment did not “extend[] to
keeping and bearing either any particular firearms or
firearms that have been confiscated from a mentally
ill person.” Rodriguez I, 2015 Cal. App. Unpub. LEXIS
2315, 2015 WL 1541988, at *7 (emphasizing that “the
right to keep and bear arms is not ‘a right to keep and
carry any weapon whatsoever in any manner
whatsoever and for whatever purpose’” (quoting
McDonald, 561 U.S. at 786)). Ultimately, the court
concluded “that Lori ha[d] failed to show that the trial
court’s . . . order violate[d] the Second Amendment.”
2015 Cal. App. Unpub. LEXIS 2315, 2015 WL
1541988, at *9.
Lori seeks to escape the preclusive effect of the
California Court of Appeal’s Second Amendment
determination by arguing that two developments since
the court’s decision differentiate the issue in her
federal lawsuit from the issue litigated in state court:
(1) Lori transmuted the eleven guns from community
property to her separate personal property; and (2)
Lori obtained gun clearance releases for the firearms
from the California DOJ, which made her eligible for
the return of the firearms under California Penal Code
§§ 33850-65. But neither purported “change” affects

A14

the premises underlying the state court’s Second
Amendment analysis.8
[*1133] First, the fact that Lori obtained exclusive
ownership is irrelevant for preclusion purposes
because the state appellate court already assumed
that Lori had an ownership interest in the guns under
California’s community property laws. See Rodriguez
I, 2015 Cal. App. Unpub. LEXIS 2315, 2015 WL
1541988, at *6 (stating that the parties stipulated that
Lori had standing to assert a Second Amendment right
to the firearms based on her community property
interest in them). Moreover, it is undisputed that at
least one of the twelve guns, Lori’s personal handgun,
was always her separate property—accordingly, the
court must have considered her exclusive ownership of
that gun as part of its analysis and determined that
8 Lori

also points to the California Legislature’s passage of
California Penal Code § 25135 in October 2013, at the same time
that California Penal Code § 33850 et seq. was expressly
incorporated into California Welfare & Institutions Code § 8102,
as support for her contention that issue preclusion does not bar
her Second Amendment claim. See supra n.4. According to Lori,
because California Penal Code § 25135 criminalizes keeping
firearms in a home with a prohibited person unless they are kept
in the statutorily prescribed manner, and because she would keep
the firearms in a gun safe that she contends would comply with
that statute, California law expressly authorizes her to possess
the firearms. Lori is wrong on two levels. First, even if Lori would
not be violating a criminal statute if the guns were returned to
her, nothing in California Penal Code § 25135 suggests that
complying with that statute vitiates a California court order
forfeiting firearms under California Welfare & Institutions Code
§ 8102. Second, California Penal Code § 25135 had been in effect
for more than a year when the California Court of Appeal
published its decision, so there is nothing new about its passage
that causes the issue here to be different from the issue decided
by the state appellate court.

A15

ownership did not affect the outcome under the Second
Amendment.
Second, the fact that Lori has now completed the
procedural requirements of California Penal Code §
33850 et seq. to be eligible for the return of her
firearms does not make her current situation
materially different from that considered by the
California Court of Appeal. The court requested and
received supplemental briefing from both parties on
the effect of § 33850 et seq. on Lori’s Second
Amendment right. After considering the parties’
arguments, and after observing that “[a]ccording to
Lori, the evidence showed that she is not prohibited
from owning or possessing firearms” and that “she
could secure [the guns, if returned] in a gun safe to
prevent Edward from having unauthorized a access,”
Rodriguez I, 2015 Cal. App. Unpub. LEXIS 2315, 2015
WL 1541988, at *5, the state appellate court held that
the seizure and retention did not violate Lori’s right to
keep and bear arms.
Although the court noted that “the record on appeal
shows that the procedure provided by section 33850 et
seq. for return of firearms in the possession of law
enforcement remains available to Lori,” 2015 Cal. App.
Unpub. LEXIS 2315, 2015 WL 1541988, at *8, it did
not hold that completing the section’s procedural
requirements would alter the Second Amendment
analysis. Instead, the appellate court concluded that
“Lori ha[d] failed to show that the trial court’s . . . order
violate[d] the Second Amendment by precluding her
from keeping firearms for home protection.” 2015 Cal.
App. Unpub. LEXIS 2315, 2015 WL 1541988, at *9. In
other words, as we understand the appellate court’s
decision, whether Lori might alternatively be able to

A16

regain the guns through a state administrative
procedure was not necessary to the court’s conclusion
that her Second Amendment right had not been
violated. See 2015 Cal. App. Unpub. LEXIS 2315, 2015
WL 1541988, at *8-9. We therefore conclude that the
state court considered and rejected a Second
Amendment argument identical to the one before us
now.
We next turn to the fifth Lucido factor and ask
whether the parties against whom preclusion is being
sought are the same as, or in privity with, the parties
in the former proceeding. See Lucido, 795 P.2d at 1225.
The two organizational plaintiffs, SAF and CGF, have
joined Lori in her federal suit but were not present in
the state court proceedings. We hold that because the
organizational plaintiffs do not have Article III
standing, Lori is the sole plaintiff against whom
preclusion would be applied, so the fifth Lucido factor
is satisfied.9
[*1134] Plaintiffs admit that Lori is not a member
of either SAF or CGF, and the organizations do not
appear to assert that they have standing on behalf of
any other member. They accordingly do not have
standing under Hunt v. Washington State Apple
Advertising Commission, 432 U.S. 333, 343, 97 S. Ct.
9 The

fifth Lucido factor would also be satisfied if SAF and
CGF were in privity with Lori. Because Lori is not one of their
members, and because the nature of the relationship between
Lori and the organizations—including whether SAF or CGF had
any involvement in the state court proceedings—is unclear from
the record, we have addressed this Lucido factor by analyzing the
organizational plaintiffs’ standing instead of attempting to apply
the state law criteria for privity. See Lynch v. Glass, 44 Cal. App.
3d 943, 119 Cal. Rptr. 139, 141-43 (Ct. App. 1975).

A17

2434, 53 L. Ed. 2d 383 (1977) (holding that an
organization may establish standing if “(a) its
members would otherwise have standing to sue in
their own right; (b) the interests it seeks to protect are
germane to the organization’s purpose; and (c) neither
the claim asserted nor the relief requested requires
the participation of individual members in the
lawsuit”).
Even absent a member with standing, however, an
organizational plaintiff “may have standing in its own
right to seek judicial relief from injury to itself and to
vindicate whatever rights and immunities the
association itself may enjoy.” Am. Fed’n of Gov’t Emps.
Local 1 v. Stone, 502 F.3d 1027, 1032 (9th Cir. 2007)
(quoting Warth v. Seldin, 422 U.S. 490, 511, 95 S. Ct.
2197, 45 L. Ed. 2d 343 (1975)). Of course, to do so,
organizations must satisfy the traditional standing
requirements of (1) injury in fact, (2) causation, and (3)
redressability. La Asociacion de Trabajadores de Lake
Forest v. City of Lake Forest, 624 F.3d 1083, 1088 (9th
Cir. 2010) (citing Lujan v. Defs. of Wildlife, 504 U.S.
555, 560-61, 112 S. Ct. 2130, 119 L. Ed. 2d 351 (1992)).
Our “in its own right” line of organizational
standing case law stems from the Supreme Court’s
decision in Havens Realty Corp. v. Coleman, 455 U.S.
363, 102 S. Ct. 1114, 71 L. Ed. 2d 214 (1982). There, a
fair housing organization alleged in its complaint that
it “ha[d] been frustrated by defendants’ racial steering
practices in its efforts to assist equal access to
housing" and that the organization had needed “to
devote significant resources to identify and
counteract” those practices. Id. at 379. The Supreme
Court held that those allegations were sufficient to
establish standing at the motion to dismiss stage,

A18

explaining that “[s]uch concrete and demonstrable
injury to the organization’s activities—with the
consequent drain on the organization’s resources—
constitute[d] far more than simply a setback to the
organization’s abstract social interests.” Id.
We have subsequently interpreted Havens to mean
that an organization may establish “injury in fact if it
can demonstrate: (1) frustration of its organizational
mission; and (2) diversion of its resources to combat
the particular [injurious behavior] in question.” Smith
v. Pac. Props. & Dev. Corp., 358 F.3d 1097, 1105 (9th
Cir. 2004) (citation omitted). The organization cannot,
however, “manufacture the injury by incurring
litigation costs or simply choosing to spend money
fixing a problem that otherwise would not affect the
organization at all.” La Asociacion de Trabajadores,
624 F.3d at 1088. In other words, an organizational
plaintiff must show that the defendant’s actions run
counter to the organization’s purpose, that the
organization seeks broad relief against the defendant’s
actions, and that granting relief would allow the
organization to redirect resources currently spent
combating the specific challenged conduct to other
activities that would advance its mission.
For example, in El Rescate Legal Services, Inc. v.
Executive Office of Immigration Review, 959 F.2d 742
(9th Cir. 1991), organizations assisting Central
American refugee clients in their efforts to obtain
immigration relief brought suit challenging the
government’s policy and practice of using incompetent
translators and of not interpreting portions of
immigration court hearings. Id. at 745, 748. We held
that the organizations had standing because the policy
“frustrate[d] [the organizations’] goals and require[d]

A19

the organizations to [*1135] expend resources in
representing clients they otherwise would spend in
other ways.” Id. at 748 (citing Havens, 455 U.S. at
379).
Similarly, in People for the Ethical Treatment of
Animals v. United States Department of Agriculture,
797 F.3d 1087, 418 U.S. App. D.C. 223 (D.C. Cir. 2015),
the plaintiff organization alleged that it had needed to
expend additional resources to ensure the humane
treatment of birds because the USDA had failed to
apply the protections of the Animal Welfare Act to
birds even after promising for ten years to do so. Id. at
1089, 1094-95. The D.C. Circuit held that because the
plaintiff had specifically alleged how it diverted
resources to address the USDA’s failure to apply the
Act to birds, there was enough evidence of injury to
satisfy Article III’s standing requirements. Id. at 109697.10
10 Writing

separately in People for the Ethical Treatment of
Animals, Judge Millett contended that there is “grave tension”
between the expansion of Havens-based organizational standing
and broader Article III standing principles. Id. at 1099-1106
(Millett, J., dubitante). Although Judge Millett recognized that,
under current precedent, an organizational plaintiff’s
expenditure of resources can be sufficient to establish standing,
she expressed concern that the doctrine allows an organization to
bring suit “every time [it] believes that the government is not
enforcing the law as much, as often, or as vigorously as it would
like.” Id. at 1103. She found this “hard to reconcile with the
general rule that a plaintiff’s voluntary expenditure of resources
to counteract governmental action that only indirectly affects the
plaintiff does not support standing.” Id. at 1099 (citing Clapper v.
Amnesty Int’l USA, 568 U.S. 398, 410-16, 133 S. Ct. 1138, 185 L.
Ed. 2d 264 (2013)); see also Fair Hous. Council v. Roommate.com,
LLC, 666 F.3d 1216, 1224-27 (9th Cir. 2012) (Ikuta, J., concurring
and dissenting) (criticizing our case law holding "that an

A20

By contrast to the organizational plaintiffs in El
Rescate and People for the Ethical Treatment of
Animals, Plaintiffs here challenge only the City’s
seizure of one person’s, Lori’s, guns and the refusal to
give them back. Although the organizational plaintiffs
state in the Complaint that they are seeking
prospective injunctive relief “to prevent future
violations of their members’ constitutional right[s],”
the Havens theory of standing they relied on
exclusively at summary judgment is not based on
injury to their members. And the only specific remedy
ever requested was return of the guns to Lori (who,
again, is not a member of either SAF or CGF). The
organizational plaintiffs have not explained how the
City’s retention of Lori’s guns either impedes their
ability to carry out their mission or requires them to
divert substantial resources away from the
organizations’ preferred uses—let alone both.
Relatedly, the organizations have not shown how the

organization with a social interest in advancing enforcement of a
law was injured when the organization spent money enforcing
that law,” because “[t]his looks suspiciously like a harm that is
simply ‘a setback to the organization’s abstract social interests,’
[which] Havens indicated was not a 'concrete and demonstrable
injury,’” and urging en banc reconsideration of our organizational
standing doctrine). We share many of these concerns but are
bound to apply current precedent regardless. See E. Bay
Sanctuary Covenant v. Trump, 909 F.3d 1219, 1242-43 (9th Cir.
2018) (recognizing these criticisms of Havens-based
organizational standing but also recognizing that three-judge
panels of our court may not depart from prior precedent). In any
event, these concerns are not directly implicated here because, as
we explain below, SAF and CGF lack standing even under the
line of standing case law that Judge Millett and Judge Ikuta
believe has gone astray.

A21

requested relief would redress any broader harm that
the organizations work to combat.
Each organization has produced a single affidavit
from a high-ranking official to attempt to establish
Article III standing. In his affidavit, SAF’s executive
vice president asserted only that the organization’s
purpose “include[s] education, research, [*1136]
publishing and legal action focusing on the
Constitutional right to privately own and possess
firearms [as well as] the consequences of gun control
and legislation that impacts the ‘right to keep and bear
arms.’” CGF’s executive director similarly framed
CGF’s mission as “promoting education for all
stakeholders about California and federal firearms
laws . . . and defending and protecting the civil rights
of California gun owners.” Both organizations also
allege that they expend resources advising and
assisting members and non-members in navigating
California’s gun laws and attempting to recover
confiscated firearms. But neither organization
presents any evidence of expending resources to assist
Lori apart from incurring litigation costs as coplaintiffs in her federal litigation.
The mere fact that these organizations represent
California gun owners and provide legal advice in
navigating California’s gun laws does not
automatically lead to the conclusion that the
confiscation and retention of Lori’s guns frustrates
their missions or requires them to divert resources.
Because SAF and CGF have offered no theory
explaining their organizational harm—let alone
evidence supporting such a theory, as is required at
the summary judgment stage—they have not

A22

demonstrated Article III standing.11 And without the
presence of the organizational plaintiffs, we are left
considering issue preclusion against only Lori, the
same party who litigated the state court proceedings.
The fifth Lucido factor is thus satisfied.
Finally, under the sixth Lucido factor, we ask
whether applying issue preclusion here would promote
the public policies of “preservation of the integrity of
the judicial system, promotion of judicial economy, and
protection of litigants from harassment by vexatious
litigation.” Lucido, 795 P.2d at 1227. Throughout the
state court proceedings, the question whether the
seizure and retention of the firearms violated Lori’s
Second Amendment right was at center stage. The
California Superior Court and the California Court of
Appeal both expressly considered and ruled on that
issue. Redeciding it now, when the facts and Lori’s
arguments have not materially changed from what
was presented in the state proceedings, would
undermine the issue preclusion doctrine’s goals of
comity and judicial economy, so the requirements of
the sixth Lucido factor are also met.
11 Unlike

in Havens, which the Supreme Court considered at
the motion to dismiss stage, we are reviewing the organizations’
Article III standing here on appeal from summary judgment.
Accordingly, SAF and CGF were required to support their
standing claims with “specific facts” showing the frustration of
their purpose and diversion of their resources through affidavits
or other evidence. See Lujan, 504 U.S. at 561 (“[a]t the pleading
stage, general factual allegations of injury resulting from the
defendant’s conduct may suffice,” but at the summary judgment
stage “the plaintiff can no longer rest on such mere allegations
and instead must set forth by affidavit or other evidence specific
facts, which for purposes of the summary judgment motion will
be taken to be true” (citations and quotation marks omitted)).

A23

For these reasons, we hold that Lori’s Second
Amendment challenge is precluded under California
law. We therefore affirm judgment for Defendants on
Lori’s Second Amendment claim without further
analysis.
B.
Lori also argues that the officers’ warrantless
confiscation of her firearms on the night of her
husband’s hospitalization violated her Fourth
Amendment rights. “A seizure conducted without a
warrant is ‘per se unreasonable under the Fourth
Amendment,’” with some limited exceptions. United
States v. Hawkins, 249 F.3d 867, 872 [*1137] (9th Cir.
2001) (quoting Minnesota v. Dickerson, 508 U.S. 366,
372, 113 S. Ct. 2130, 124 L. Ed. 2d 334 (1993)).12 We
hold that an exception to the warrant requirement
applies here, so we reject Lori’s Fourth Amendment
claim.13

12 The Fourth Amendment also protects against warrantless
searches, absent an exception. United States v. Martinez, 406
F.3d 1160, 1163 (9th Cir. 2005) (explaining that searches, as well
as seizures, inside a home are presumptively unreasonable). Lori
has not challenged any search. Indeed, in her opening brief to our
court, she emphasized that “there was no search.” We therefore
limit our Fourth Amendment inquiry to the reasonableness of the
seizure.
13 Unlike the Second Amendment challenge, Lori’s Fourth
Amendment arguments were neither raised nor decided in state
court, so issue preclusion could not apply. And, as explained
above, there is less reason to forgive waiver of claim preclusion
than there is to forgive waiver of issue preclusion, so even if the
Fourth Amendment argument could be viewed as part of the
same claim that Lori pursued in state court, we would decline to
consider claim preclusion sua sponte.

A24

The Supreme Court has recognized a category of
police activity relating to the protection of public
health and safety—a category commonly referred to as
the “community caretaking function”—that is “totally
divorced from the detection, investigation, or
acquisition of evidence relating to the violation of a
criminal statute.” Cady v. Dombrowski, 413 U.S. 433,
441, 93 S. Ct. 2523, 37 L. Ed. 2d 706 (1973). Searches
and seizures performed under the community
caretaking function, like those performed pursuant to
the criminal investigatory function, are subject to the
Fourth Amendment’s warrant requirement. See
United States v. Erickson, 991 F.2d 529, 531-32 (9th
Cir. 1993) (holding that the “community caretaking
function . . . cannot itself justify a warrantless
search”). Thus, the government must demonstrate
that a search or seizure conducted to protect public
health or safety but without a warrant falls within an
exception to the warrant requirement.
We have previously recognized two types of police
action in which an officer may conduct a warrantless
search or seizure when acting within the community
caretaking function: (1) home entries to investigate
safety or medical emergencies, and (2) impoundments
of hazardous vehicles.
The first category, termed the “emergency
exception,” authorizes a warrantless home entry
where officers “ha[ve] an objectively reasonable basis
for concluding that there [i]s an immediate need to
protect others or themselves from serious harm; and
[that] the search’s scope and manner [a]re reasonable
to meet the need.” United States v. Snipe, 515 F.3d
947, 952 (9th Cir. 2008). As with many exceptions to
the warrant requirement, we “judge whether or not

A25

the emergency exception applies in any given situation
based on the totality of the circumstances,” with the
government bearing the burden of showing “that the
search at issue meets these parameters.” Hopkins v.
Bonvicino, 573 F.3d 752, 764 (9th Cir. 2009) (quoting
United States v. Stafford, 416 F.3d 1068, 1074 (9th Cir.
2005)). That burden includes “show[ing] that a
warrant could not have been obtained in time.” United
States v. Struckman, 603 F.3d 731, 738 (9th Cir. 2010)
(quoting United States v. Good, 780 F.2d 773, 775 (9th
Cir. 1986)).14
[*1138] Until now, our case law on seizures under
the community caretaking function has related solely
to the second category: impounding vehicles that
“jeopardize public safety and the efficient movement of
vehicular traffic,” oftentimes after the driver has been
detained or has otherwise become incapacitated.
Miranda v. City of Cornelius, 429 F.3d 858, 864 (9th
Cir. 2005) (quoting South Dakota v. Opperman, 428
U.S. 364, 368-69, 96 S. Ct. 3092, 49 L. Ed. 2d 1000
(1976)); see also United States v. Jensen, 425 F.3d 698,
706 (9th Cir. 2005) (“Once the arrest [of the driver]
was made, the doctrine allowed law enforcement
14 By

contrast, the exigent circumstances exception arises
within the police’s investigative function. Hopkins, 573 F.3d at
763. Under that exception to the warrant requirement, police
may “enter a home without a warrant if they have both probable
cause to believe that a crime has been or is being committed and
a reasonable belief that their entry is ‘necessary to prevent . . .
the destruction of relevant evidence, the escape of the suspect, or
some other consequence improperly frustrating legitimate law
enforcement efforts.’” Id. (quoting United States v. McConney,
728 F.2d 1195, 1199 (9th Cir. 1984) (en banc)). Defendants do not
attempt to rely on the exigent circumstances exception here, so
we need not decide whether it could have applied.

A26

officers to seize and remove any vehicle which may
impede traffic, threaten public safety, or be subject to
vandalism.”). In those cases, to determine whether the
seizure was reasonable, we balanced the urgency of
the public interest in safe, clear roads against the
private interest in preventing the police from
interfering with a person’s property. Compare United
States v. Torres, 828 F.3d 1113, 1120 (9th Cir. 2016)
(holding that it did not violate the Fourth Amendment
to impound a vehicle that, among other concerns, was
“positioned in a manner that could impede emergency
services”) with United States v. Caseres, 533 F.3d
1064, 1075 (9th Cir. 2008) (concluding that it was
constitutionally unreasonable for police to impound a
car when the car was lawfully parked near the
arrested driver’s residence and when there was no
showing that the car was likely to be stolen or
vandalized, or to impede traffic).15 These vehicle
seizure cases are similar to the emergency exception
home entry cases because they allow the police to
respond to an immediate threat to community safety.
A seizure of a firearm in the possession or control
of a person who has been detained because of an acute
mental health episode likewise responds to an
immediate threat to community safety. We believe the
same factors at issue in the context of emergency
exception home entries and vehicle impoundments—
(1) the public safety interest; (2) the urgency of that
public interest; and (3) the individual property,
liberty, and privacy interests—must be balanced,
15 To

properly impound a motor vehicle without a warrant, law
enforcement must also act “in conformance with the standardized
procedures of the local police department.” Torres, 828 F.3d at
1118.

A27

based on all of the facts available to an objectively
reasonable officer, when asking whether such a
seizure of a firearm falls within an exception to the
warrant requirement.
Other circuits have looked at precisely such factors
in analyzing whether guns could be seized without a
warrant to protect the gun owner or those nearby. For
example, in Mora v. City of Gaithersburg, 519 F.3d 216
(4th Cir. 2008), a firefighter (Mora) called 911 and told
the operator that “he was suicidal, had weapons in his
apartment, could understand shooting people at work,
and said, ‘I might as well die at work.’” Id. at 220. After
confirming with one of Mora’s coworkers that his
threats should be taken seriously, but without first
obtaining a warrant, police drove to Mora’s apartment
and found him loading his vehicle with suitcases and
gym bags. Id. The police confiscated the bags and
found a gun inside. Id. Police then took Mora’s keys,
entered his apartment, and discovered a large gun safe
containing twenty-one guns and keys to a second safe.
[*1139] Id. They ultimately located forty-one firearms,
ammunition, and survivalist literature throughout the
apartment. Id. The police detained Mora for a mental
health evaluation and then seized the firearms
without a warrant. Id.
The Fourth Circuit held that the officers had not
violated Mora’s Fourth Amendment rights. The
Fourth Circuit “identif[ied] the individual and
governmental interests at stake and balanc[ed] them
for reasonableness in light of the circumstances.” Id.
at 223. Weighing the government’s interest in
“[p]rotecting the physical security of its people” from
“an individual who intends slaughter” against the
private interests in liberty, privacy, and property, the

A28

court observed that “[r]especting the rights of
individuals has never required running a risk of mass
death.” Id. at 223-24. Rather, the court explained that
“[a]s the likelihood, urgency, and magnitude of a
threat increase, so does the justification for and scope
of police preventive action.” Id. at 224. Applying these
principles, the Fourth Circuit held that the officers
had “a sound basis for seizing Mora’s weapons,
whether or not they were contraband or evidence.” Id.
at 227. The court also rejected the argument that
Mora’s previous removal from the scene diminished
the public safety justification for seizing the guns
because the officers had no idea whether Mora’s
“confederates might possess access to Mora’s
considerable store of firearms, or whether Mora
himself might return to the apartment more quickly
than expected.” Id. at 228.
The D.C. Circuit considered similar factors in
Corrigan v. District of Columbia, 841 F.3d 1022, 426
U.S. App. D.C. 358 (D.C. Cir. 2016), and ultimately
held that there was not a sufficiently imminent threat
to justify the warrantless search of a home and seizure
of guns found inside. Id. at 1035. In that case, the
police were dispatched in the middle of the night to a
military veteran’s (Corrigan’s) home for what they
believed to be an “attempted suicide.” Id. at 1026. They
learned from his ex-girlfriend and landlord that
Corrigan had weapons, had recently ended a romantic
relationship, and was under psychiatric care for PTSD
and depression. Id. at 1026. After the police attempted
to contact him numerous times over the course of
several hours, Corrigan woke up and voluntarily came
outside. Id. at 1026-27. He surrendered himself into
the officers’ custody, though he refused to consent to a
search of his home. Id. at 1027.

A29

Despite having Corrigan in custody, the police
broke into his home, first conducting a “sweep” for
injured persons or threats and then performing a “topto-bottom warrantless search” to look for “any
hazardous materials that could remain on the scene
and be dangerous to the public.” Id. During the search,
the officers broke into several locked boxes and
discovered multiple firearms, a military smoke
grenade, fireworks, and ammunition. Id. at 1028.
The D.C. Circuit held that the search was
unreasonable under the Fourth Amendment. Id. at
1035. Emphasizing that the police “had been on the
scene for five hours and fully secured the area prior to
the [] entry and search,” as well as the fact that
Corrigan had surrendered peacefully, id. at 1034, the
court concluded that “there was no objectively
reasonable factual basis for the [police] to believe an
imminently dangerous hazard could be present in
Corrigan’s home, particularly after completing the
‘sweep,’” id. at 1031 (emphasis added).
Applying the same analytical framework, we hold
that the warrantless seizure of the Rodriguezes’ guns
was appropriate. The seizure of the firearms did affect
a serious private interest in personal property kept in
the home. On the other [*1140] hand, the public
interest at stake here was also very significant. San
Jose police officers had previously been to the home on
prior occasions because Edward was acting erratically,
and on the day in question, Edward was ranting about
the CIA, the army, and other people watching him. He
also mentioned “[s]hooting up schools,” specifically
referencing the guns in the safe. Edward’s threats may
not have been as explicit as the threats made in Mora,
but a reasonable officer would have been deeply

A30

concerned by the prospect that Edward might have
had access to a firearm in the near future.
Consequently, there was a substantial public safety
interest in ensuring that the guns would not be
available to Edward should he return from the
hospital.
With significant private and public interests
present on both sides, the urgency of the public safety
interest is the key consideration in deciding whether
the seizure here was reasonable. We believe that, on
this record, the urgency of the situation justified the
seizure of the firearms.
Importantly, the officers had no idea when Edward
might return from the hospital. Even though
California Welfare & Institutions Code § 5150
authorized the detention of Edward for a period of up
to 72 hours for treatment and evaluation, he could only
be held for that period if the hospital staff actually
admitted him. See id. §§ 5150 (2013), 5151 (2013). As
Lori conceded at oral argument, as far as the officers
knew, Edward could have returned to the home at any
time—making it uncertain that a warrant could have
been obtained quickly enough to prevent the firearms
from presenting a serious threat to public safety.
Lori asserts two primary counterarguments to the
conclusion that there was sufficient urgency to justify
the warrantless seizure of the firearms. First, she
argues that any urgency was diminished because she
could change the combination to the gun safe,
preventing Edward from accessing the guns. But even
assuming Lori could have changed the combination
before Edward could have returned, it was reasonable
to believe that Edward, who weighed 400 pounds,
could have overpowered her to gain access to the guns.

A31

Second, Lori contended at oral argument that
telephonic warrants are available in San Jose and that
the officers could have obtained such a warrant more
quickly than Edward could have returned if the
hospital had not admitted him. But she has offered no
support for either assertion. And without evidence or
other support for her conclusory statements, Lori has
not carried her burden in opposing summary
judgment. See Celotex Corp. v. Catrett, 477 U.S. 317,
324, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986).16
Our holding that the warrantless seizure of the
guns did not violate the Fourth Amendment is limited
to the particular circumstances here: the officers had
probable cause to detain involuntarily an individual
experiencing an acute mental health episode and to
send the individual for evaluation, they expected the
individual would have access to firearms and present
a serious public safety threat if he returned to the
home, and they did not know how quickly the
individual might return. Under these circumstances,
the urgency of a significant public safety interest was
sufficient to outweigh the significant privacy [*1141]
interest in personal property kept in the home, and a
warrant was not required.
III.
For the foregoing reasons, we AFFIRM.

16 As

noted above, see supra n.15, police must act “in
conformance” with department procedures when impounding a
vehicle without a warrant. See Torres, 828 F.3d at 1118. We need
not decide whether there is an equivalent requirement for the
seizure of firearms because Lori has not disputed the officers’
compliance with San Jose Police Department procedures here.

APPENDIX B
773 Fed. Appx. 994
Notice: Please refer to Federal Rules of Appellate
Procedure Rule 32.1 governing the citation to
unpublished opinions.
United States Court of Appeals for the Ninth
Circuit
LORI RODRIGUEZ; et al., Plaintiffs-Appellants,
v.
CITY OF SAN JOSE; et al., Defendants-Appellees.
No. 17-17144
Argued: January 14, 2019
Filed: July 23, 2019
Before: WALLACE, CLIFTON, and FRIEDLAND,
Circuit Judges.
[*994] MEMORANDUM*
Plaintiff-Appellant Lori Rodriguez (“Lori”) and two
organizational co-plaintiffs appeal from the district
court’s summary judgment for the City of San Jose
(“the City”), the San Jose Police Department, and
Officer Valentine (collectively, “Defendants”). Lori
argues that the district court erred in concluding there
was no genuine dispute of material fact on her claims
* This

disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

(B1)

B2

that the seizure and retention of her firearms violated
her rights under the Second, Fourth, Fifth, and
Fourteenth Amendments, and under California Penal
Code § 33800 et seq. [*995] We affirm the summary
judgment in favor of Defendants on the Second and
Fourth Amendment claims in a concurrently filed
opinion, and we address the remaining claims herein.
We affirm judgment for Defendants on those claims as
well.
First, Lori argues that the City’s refusal to return
the firearms after Lori had complied with the
procedures set forth in Penal Code § 33800 et seq.
violates her right to procedural due process. We
disagree.
Generally, procedural due process claims have “two
distinct elements: (1) a deprivation of a
constitutionally protected liberty or property interest,
and (2) a denial of adequate procedural protections.”
Brewster v. Bd. of Educ., 149 F.3d 971, 982 (9th Cir.
1998). As a preliminary matter, Lori does not argue,
nor could she, that the City initially retained the
firearms without adequate process. She was allowed
to intervene in proceedings before the state trial court
concerning the City’s petition to retain the weapons,
including in a hearing in which she offered evidence
and contested the City’s evidence before a neutral
decisionmaker and in which the City had the burden
of showing the firearms should not be returned.
Instead, she challenges the process she received when
the City refused to return her guns for a second time.
In our view, however, Lori misunderstands California
Penal Code § 33800 et seq. in arguing that she obtained
a new property interest, and therefore was entitled to

B3

additional process, after she fulfilled the statute’s two
requirements.
Obtaining gun clearance releases from the
California Department of Justice and re-registering
the guns in her name may have made Lori eligible for
the return of her firearms, but that eligibility did not
supersede any existing prohibitions on returning the
firearms—including, in this case, the trial court’s
order that Defendants could retain the guns under
California Welfare & Institutions Code § 8102. See
Cal. Penal Code § 33800(c) (“Nothing in this section is
intended to displace any existing law regarding the
seizure or return of firearms.”). In other words,
completing the procedures outlined in § 33800 et seq.
did not give Lori an additional property interest in her
guns, so she was not due any additional process. See
Roybal v. Toppenish Sch. Dist., 871 F.3d 927, 931 (9th
Cir. 2017) (explaining that property interests “arise[]
only where there is a legitimate claim of entitlement,
not merely an abstract need or desire for [a] particular
benefit”).1
Second, Lori contends that because the Takings
Clause applies to personal property, Defendants’
seizure and retention of her firearms means her
private property was taken for public use without just

Lori’s state law claim mirrors her procedural due process
claim, as she asserts that Penal Code § 33800 et seq. creates an
independent cause of action entitling her to the return of her
firearms. Because we conclude that the procedures under § 33800
et seq. do not supersede a determination that it would be unsafe
to return the firearms under Welfare & Institutions Code § 8102,
Lori’s state claim falls with her procedural due process claim.
1

B4

compensation, violating the Fifth Amendment. Again,
her arguments are unavailing.
The Takings Clause, as relevant here, protects
“against a direct appropriation of property—personal
or real,” Horne v. Dep’t of Agric., 135 S. Ct. 2419, 2427,
192 L. Ed. 2d 388 (2015), and such an appropriation
“triggers a ‘categorical duty to compensate the former
owner’ under the Takings Clause.” Fowler v. Guerin,
899 F.3d 1112, 1117 (9th Cir. 2018) (quoting Brown v.
Legal Found. of Wash., 538 U.S. 216, 233, 123 S. Ct.
1406, 155 L. Ed. 2d 376 (2003)). [*996] As she
conceded at oral argument, Lori still has title to her
property and can sell it to a third-party licensed
firearms dealer, see Cal. Penal Code § 33870(a), and
Defendants have agreed that Lori can still store her
firearms at a location other than her home or even
keep them in her home if they are rendered inoperable.
Lori’s Takings Clause claim therefore fails. Cf. Horne,
135 S. Ct. at 2428 (explaining that raisin growers had
an actionable Takings Clause claim because they lost
“the entire ‘bundle’ of property rights in the . . . raisins
[the government appropriated]—‘the rights to possess,
use and dispose of’ them”(citation omitted)).
AFFIRMED.

APPENDIX C
2017 U.S. Dist. LEXIS 162977
United States District Court for the Northern
District of California, San Jose Division
LORI RODRIGUEZ, et al., Plaintiffs,
v.
CITY OF SAN JOSE, et al., Defendants.
Case No. 5:15-cv-03698-EJD
Decided/Filed: September 29, 2017
Opinion by: EDWARD J. DAVILA, United States
District Judge.
ORDER GRANTING DEFENDANTS’ MOTION
FOR SUMMARY JUDGMENT AND DENYING
PLAINTIFFS’ CROSS-MOTION FOR SUMMARY
JUDGMENT
Re: Dkt. Nos. 22, 28
Plaintiffs Lori Rodriguez, the Second Amendment
Foundation, Inc. (“SAF”), and the Calguns Foundation, Inc. (“Calguns”) bring claims against Defendants
the City of San Jose, the City of San Jose’s Police Department, Officer Steven Valentine, and several Doe
defendants arising from Defendants’ confiscation and
retention of firearms registered to Lori and her husband. Plaintiffs and Defendants have both moved for
summary judgment. Plaintiffs’ motion will be denied
and Defendants’ motion will be granted.
(C1)

C2

I. BACKGROUND
In 2013, Edward Rodriguez suffered a mental episode at his home. Defs.’ Mot. for Summ. J. (“MSJ”) 2,
Dkt. No. 22. His wife, Plaintiff Lori [*2] Rodriguez,
called the police, and the San Jose Police responded.
Id. An officer detained Edward under Welfare & Institutions Code § 5150 and ordered paramedics to take
him to a hospital. Id. at 3; Pls.’ Mot. for Cross-Summ.
J. (“Cross-MSJ”) 3, Dkt. No. 28. An officer told Lori
that he was required to confiscate guns in the house.
Cross-MSJ 3. He asked Lori to provide the combination to the gun safe in the house, and she complied. Id.
at 3-4. The officer confiscated eleven guns registered
to Edward and one gun registered to Lori. MSJ 4.
The City petitioned the Superior Court for a hearing under Welfare & Institutions Code § 8102 to determine whether the guns should be returned to Edward.
MSJ 4; Cross-MSJ 4. The court decided that the guns
could not be returned to Edward because he is a “prohibited person” under Welfare & Institutions Code §
8103. MSJ 4-5; Cross-MSJ 4-5. Lori appealed, and the
California Court of Appeals affirmed. MSJ 5; CrossMSJ 5; City of San Jose v. Rodriguez, H04031, 2015
WL 1541988 (Cal. Ct. App. Apr. 2, 2015).
The City has not returned the guns. Plaintiffs filed
this action in 2015, bringing claims for violations of
the Second Amendment, the Fourth Amendment, the
Fifth Amendment, the Fourteenth Amendment, and
Cal. Penal Code §§ 33800 et seq. Compl. ¶¶ 42-56, Dkt.
No. 1. Now before the Court are Plaintiffs’ motion for
summary judgment and [*3] Defendants’ cross-motion
for summary judgment.

C3

II. LEGAL STANDARD
“Summary judgment is proper where no genuine issue of material fact exists and the moving party is entitled to judgment as a matter of law.” Samuels v. Holland Am. Line-USA, Inc., 656 F.3d 948, 952 (9th Cir.
2011) (citing Fed. R. Civ. P. 56(a)). The Court “must
draw all reasonable inferences in favor of the nonmoving party.” Id. “The central issue is ‘whether the evidence presents a sufficient disagreement to require
submission to a jury or whether it is so one-sided that
one party must prevail as a matter of law.’” Id. (quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 25152 (1986)).
III.DISCUSSION
A. Standing
Defendants argue that Plaintiffs SAF and Calguns
(but not Lori Rodriguez) lack Article III standing to
pursue their claims. “[A]n organization has ‘direct
standing to sue [when] it show[s] a drain on its resources from both a diversion of its resources and frustration of its mission.’” Fair Hous. Council of San Fernando Valley v. Roommate.com, LLC, 666 F.3d 1216,
1219 (9th Cir. 2012) (quoting Fair Hous. of Marin v.
Combs, 285 F.3d 899, 905 (9th Cir.2002)). The Court
agrees with SAF and Calguns that they have standing
because they divert resources to assist gun owners to
recover their property after seizure, they engage in related public education activities, they litigate cases
like this one, and they have members in California
that are affected. Cross-MSJ 7.

C4

B. Second Amendment
Plaintiffs allege that Defendants have [*4] violated
Plaintiffs’ “constitutional right to keep and bear arms
under the Second Amendment.” Compl. ¶¶ 42-44.
However, despite the City’s decision (under § 8102) not
to return the guns it confiscated, Lori concedes that
she is free to own and possess other guns that she lawfully acquires.1 Cross-MSJ 8. The Second Amendment
protects the right to keep and bear arms in general,
but it does not protect the right to possess specific firearms. See City of San Diego v. Boggess, 216 Cal. App.
4th 1494, 1503 (2013) (“[S]ection 8102 does not eliminate a detainee’s right to possess any and all firearms.
Rather, as City points out, it implicates only the detainee’s property right in the specific firearms confiscated by law enforcement.”) (emphasis added); Rodriguez, 2015 WL 1541988, at *7 (“[T]he Supreme Court
decisions in Heller and McDonald did not state that
the Second Amendment right to keep and bear arms
extends to keeping and bearing either any particular
firearms or firearms that have been confiscated from
a mentally ill person.”) (emphasis added). As such,

1 Lori

could sell the firearms at issue to a licensed
dealer under Cal. Penal Code § 33850(b) (“A person
who owns a firearm that is in the custody of a court or
law enforcement agency and who does not wish to
obtain possession of the firearm, and the firearm is an
otherwise legal firearm, and the person otherwise has
right to title of the firearm, shall be entitled to sell or
transfer title of the firearm to a licensed dealer.”)
(emphasis added). Apparently, Lori could then
purchase those guns from the dealer.

C5

Defendants’ motion for summary judgment must be
granted as to Plaintiffs’ Second Amendment claim.
C. Fourth Amendment
Plaintiffs allege that Defendants’ confiscation of
the guns and their decision not to return the guns to
Lori constitute an unreasonable [*5] seizure under the
Fourth Amendment. Compl. ¶¶ 45-47. Plaintiffs do not
challenge the reasonableness of the search of Lori and
Edward’s home; rather, they challenge the reasonableness of Defendants’ confiscation and retention of the
firearms. Cross-MSJ 12-14.
The Court finds that, under the circumstances, the
confiscation of the guns was entirely reasonable. Edward was detained for mental health reasons under §
5150, and the officer on the scene confiscated the guns
under § 8102. This is precisely the type of scenario that
§ 8102 is designed to address. See Welfare & Institution Code § 8102 (“Whenever a person, who has been
detained or apprehended for examination of his or her
mental condition . . . , is found to own, have in his or
her possession or under his or her control, any firearm
whatsoever, or any other deadly weapon, the firearm
or other deadly weapon shall be confiscated by any law
enforcement agency or peace officer, who shall retain
custody of the firearm or other deadly weapon.”) (emphasis added). It was not unreasonable for the officer
to follow the statutory procedure for confiscating
deadly weapons from a person “who has been detained
. . . for examination of his or her mental condition.”
[*6] Id.
The City’s continued retention of the guns is likewise reasonable. Plaintiffs challenged the City’s petition before the Superior Court and received a full

C6

evidentiary hearing. That court’s decision received a
full review and a written opinion from the California
Court of Appeals, which affirmed the trial court’s decision to grant the City’s petition. See Rodriguez, 2015
Cal. App. Unpub. LEXIS 2315, 2015 WL 1541988.
Accordingly, Defendants’ motion for summary
judgment will be granted as to Plaintiffs’ Fourth
Amendment claim.
D. Fifth Amendment
Plaintiffs allege that the City’s confiscation and retention of the guns is a “taking of property without just
compensation” under the Fifth Amendment. Compl.
¶¶ 48-50. Plaintiffs’ claim fails because “[t]he government may not be required to compensate an owner for
property which it has already lawfully acquired under
the exercise of governmental authority other than the
power of eminent domain.” Bennis v. Michigan, 516
U.S. 442, 452 (1996). Here, Defendants lawfully exercised their forfeiture authority under § 8102. That exercise does not constitute a taking of property without
just compensation. Defendants’ motion for summary
judgment will be granted as to Plaintiffs’ Fifth Amendment claim.
E. Fourteenth Amendment
Lori alleges that Defendants’ confiscation and retention of the guns constituted a “violation her due
process [*7] rights (administrative return of property)
under the Fourteenth Amendment” (and Calguns and
SAF allege a similar claim on behalf of their members). Compl. ¶¶ 51-53. In their summary judgment
briefing, Plaintiffs clarify that they allege a procedural
due process violation based on the City’s refusal to return the firearms following the Court of Appeals’

C7

decision. Dkt. No. 43 at 12. Defendants cite the Court
of Appeals’ statement that “the procedure provided by
section 33850 et seq. for return of firearms in the possession of law enforcement remains available to Lori.”
Rodriguez, 2015 WL 1541988, at *8.
Defendants appear to argue that this language requires the City to return the firearms to Lori. But Defendants misread the court’s decision: the court did not
order the City to return the firearms to Lori; rather, it
addressed Lori’s two challenges to the City’s petition—
on the grounds (1) insufficiency of evidence and (2) violation of her Second Amendment rights—and noted
that Lori had not yet chosen to pursue remedies under
Penal Code § 33800. No procedural due process violation arises from the City’s decision not to return the
guns to Lori, since the Court of Appeals did not require
it to do so. As such, Defendants’ motion for summary
judgment will be granted as to Plaintiffs’ [*8] Fourteenth Amendment claim.
F. Penal Code § 33800 et seq.
Plaintiffs bring a claim for violation of Cal. Penal
Code § 33800 et seq. However, summary judgment
must be granted in Defendants’ favor because that
statute does not authorize an independent cause of action. See Calhoun v. City of Hercules Police Dep’t, No.
14-CV-01684-VC, 2014 WL 4966030, at *3 (N.D. Cal.
Oct. 3, 2014), aff’d, 675 F. App’x 656 (9th Cir. 2017)
(“California Penal Code § 33855 lays out the procedures that a law enforcement agency must follow before it can return a confiscated firearm, but it does not,
in itself, provide a cause of action to a plaintiff who
believes he is entitled to his firearm.”).

C8

IV. CONCLUSION
Defendants’ motion for summary judgment (Dkt.
No. 22) is GRANTED. Plaintiffs’ motion for summary
judgment (Dkt. No. 28) is DENIED. The Clerk shall
close this file.
IT IS SO ORDERED.
Dated: September 29, 2017
/s/ Edward J. Davila
EDWARD J. DAVILA
United States District Judge

APPENDIX D
2019 U.S. App. LEXIS 28877
United States Court of Appeals for the Ninth
Circuit
LORI RODRIGUEZ; et al., Plaintiffs-Appellants,
v.
CITY OF SAN JOSE; et al., Defendants-Appellees.
No. 17-17144
Filed: September 24, 2019
Before: WALLACE, CLIFTON, and FRIEDLAND,
Circuit Judges.
ORDER
The panel has unanimously voted to deny
appellant’s petition for rehearing. Judge Friedland
has voted to deny the petition [*2] for rehearing en
banc, and Judge Wallace and Judge Clifton so
recommend. The full court has been advised of the
petition for rehearing en banc, and no judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petitions for rehearing and rehearing en banc
are DENIED.

(D1)

APPENDIX E
2015 Cal. App. Unpub. LEXIS 2315
Notice: Not to be published in official reports.
California Rules of Court, Rule 8.1115(a), prohibits
courts and parties from citing or relying on opinions
not certified for publication or ordered published,
except as specified by Rule 8.1115(b). This opinion has
not been certified for publication or ordered published
for the purposes of Rule 8.1115.
Court of Appeal of California, Sixth Appellate District
CITY OF SAN JOSE, Plaintiff and Respondent,
v.
EDWARD V. RODRIGUEZ, Defendant; LORI
RODRIGUEZ, Intervener and Appellant.
No. H040317
Opinion filed April 2, 2015
Judges: BAMATTRE-MANOUKIAN, ACTING P.
J.; MIHARA, J., GROVER, J. concurred.
Opinion by: BAMATTRE-MANOUKIAN, ACTING
P. J.
I. INTRODUCTION
The City of San Jose police officers who responded
to a domestic disturbance call at the home of Edward
V. Rodriguez determined that he was a danger to
himself and others and had him transported to Santa
Clara Valley Medical Center for 72-hour treatment
and evaluation under Welfare and Institutions Code
(E1)

E2

section 5150.1 The police officers also seized 12
firearms from the home pursuant to section 8102,
subdivision (a), which requires confiscation of any
firearms owned by or found in the possession or control
of a person detained for an examination of his or her
mental condition.
The City of San Jose (City) subsequently filed a
petition for disposition of the firearms in which the
City requested a court order allowing forfeiture of the
confiscated firearms pursuant to section 8102,
subdivision (c). Edward V. Rodriguez’s wife, appellant
Lori Rodriguez, opposed the petition and sought
return of the firearms to her.2 After an evidentiary
hearing, the trial court determined that return of the
confiscated firearms to the Rodriguez home [*2] would
be likely to result in the endangerment of Edward or
others, and granted City’s petition.
On appeal, Lori contends that the trial court erred
because the order granting City’s petition is not
supported by substantial evidence of danger and also
violates her right to keep and bear arms under the
Second Amendment to the United States Constitution.
For the reasons stated below, we determine that the
trial court’s order under section 8102, subdivision (a)
is supported by substantial evidence. We also
determine that Lori has not shown that her Second
Amendment rights were violated by the trial court’s
order.
1 All further statutory references are to the Welfare and
Institutions Code unless otherwise indicated.
2 Since Edward V. Rodriguez and appellant Lori Rodriguez
have the same surname, we will refer to them by their first names
for purposes of clarity and meaning no disrespect.

E3

II. FACTUAL AND PROCEDURAL
BACKGROUND
A. City’s Petition for Disposition of the Firearms
On February 22, 2013, City filed a petition for
disposition of the firearms pursuant to section 8102,
subdivision (c) that named Edward as the respondent.
City stated that the firearms that were the subject of
the petition came into police custody on January 24,
2013, when police officers responding to a domestic
disturbance call at the Rodriguez home determined
that Edward was a danger to himself or others.
Edward was then transported to a medical [*3] center
on a 72-hour hold for medical treatment and a
psychological evaluation pursuant to section 5150.
After Edward was transported, police officers
conducted a protective sweep and confiscated 12
firearms from the home.
In its petition, City requested that the trial court
make a finding under section 8102 as to whether
return of the weapons would be likely to endanger
Edward or others and, if the finding of danger was
made, order that the petition be granted and the
weapons forfeited. Alternatively, if no finding of
danger was made, City requested that the San Jose
Police Department retain custody of the weapons for
no more than two years unless Edward obtained a
court order allowing their return.
B. Lori’s Response to City’s Petition
Edward did not file a response to City’s petition for
disposition of firearms. Lori filed a response in
opposition to the petition in which she designated
herself as Edward’s “co-respondent.” In her supporting
declaration, Lori stated that she had been married to

E4

Edward for nearly 20 years; Edward was placed on a
psychiatric hold pursuant to section 5150 on January
24, 2013; Edward was currently prohibited from
owning, acquiring, or possessing firearms or
ammunition; and the confiscated [*4] firearms had
been kept in a safe in their home and were community
property.
Lori further declared that no firearms were
involved in the event that triggered Edward’s January
24, 2013 episode; she had opened the gun safe for the
police officers who took all of their firearms; and she
acknowledged that she had a legal duty to prevent
Edward from obtaining access to any firearms or
ammunition under her control while he remained a
prohibited person. Additionally, Lori attached
documents to her declaration that showed her
ownership of a firearm safe and her April 2013 change
to the safe’s combination.
In her hearing brief, Lori argued that the trial
court had “no power to interfere with [her] Second
Amendment ‘right to keep and bear arms,’” since she
was not prohibited from acquiring or possessing
firearms and had promised to take all steps required
under California law to secure the firearms in a gun
safe.
On June 21, 2013, the parties filed a stipulation
and order stating that the parties agreed that “Lori
Rodriguez has standing in this action in that she has
at least a community property interest in the firearms
at issue in these proceedings.”

E5

C. Evidentiary Hearing
The following is a summary of the evidence [*5]
presented at the August 9, 2013 evidentiary hearing
on City’s petition.
On January 24, 2013, Police Officer Steven
Valentine and other City of San Jose police officers
arrived at the Rodriguez home to investigate a
domestic disturbance. They were responding to Lori’s
911 call regarding Edward’s behavior and her concern
that he might be suffering from a mental illness. Police
officers had previously responded to at least two calls
of a domestic disturbance at the Rodriguez home and
were aware that there were firearms in the home.
Upon his arrival at the Rodriguez home on January
24, 2013, Officer Valentine observed that Edward was
perspiring heavily and had rapid respiration. Officer
Valentine also observed that Lori was afraid of
Edward. Edward claimed that he was affiliated with
the CIA, was acting irrationally, and had bizarre and
aggressive mannerisms. Officer Valentine believed
that Edward was delusional.
When Officer Valentine asked Edward if he wanted
to hurt himself, Edward responded by attempting to
break his own thumb. Based on his observations and
Edward’s attempt to hurt himself, Officer Valentine
determined that Edward, who weighed nearly 400
pounds, was a danger to himself [*6] and others.
San Jose Fire Department personnel and medical
personnel arrived to transport Edward to Santa Clara
Valley Medical Center (VMC) for a 72-hour hold and
psychological evaluation pursuant to former section

E6

5150.3 After Edward was secured on the gurney, he
continued to break the restraints. Medical personnel
requested that a police officer accompany them in the
ambulance. Edward was then transported to VMC,
where he was determined to be a danger to himself
and others and admitted to the hospital pursuant to
former section 51514 and section 5152.5
Officer Valentine remained at the Rodriguez home
after Edward was transported. He advised Lori that
that he would need to confiscate the weapons in the
home pursuant to section 8102. Lori unlocked a gun
safe by using the key she kept in her possession and a
combination lock. Police officers then removed 12
firearms, including three revolvers, three shotguns, a
handgun, a rifle, and four semi-automatic [*8] rifles.
Police officers did not find any firearms outside the
gun safe. The firearms had been purchased by Lori or
Edward or acquired from her family. Although one

3 At the time of Edwards’s detention, former section 5150
provided in part: “When any person, as a result of mental
disorder, is a danger to others, or to himself or herself, or gravely
disabled, a peace officer, member of the attending staff, as defined
by regulation, of an evaluation facility designated by the county,
designated members of a mobile crisis team provided by Section
5651.7, or other professional person designated by the county
may, upon probable cause, take, or cause to be taken, the person
into custody and place him or her in a facility designated by the
county and approved by the State Department of Social Services
as a facility for 72-hour treatment and evaluation.”

Section 5152, subdivision (a) provides in part: “Each person
admitted to a facility for 72-hour treatment and evaluation under
the provisions of this article shall receive an evaluation as soon
as possible after he or she is admitted and shall receive whatever
treatment and care his or her condition requires for the full
period that he or she is held.”
5

E7

firearm belonged to Lori, all 12 firearms were
confiscated because Edward had access to them.
In February 2013, City filed a petition for
disposition of the firearms to which Lori filed a
response in April 2013. In May 2013, Lori received
notification from the California Department of Justice
Bureau of Firearms that she is eligible to both possess
and purchase firearms. At the hearing, Lori testified
that she has not committed a felony and has not been
detained under section 5150.
D. Trial Court Order
In its order of September 30, 2013, the trial court
granted City’s petition for disposition of weapons. The
order also states: “The City agrees to hold the weapons
pending final disposition or resolution of this matter
in accordance with its general practices.”
During the hearing on the petition, the trial court
provided the court’s reasoning for granting the
petition. The court stated: “I mean the elephant in the
room is [Edward] goes back and somehow he
overpowers [Lori] or pressures her or something to
open the safe. I mean that’s a real [*9] concern I have.
At the end of the day this is a public safety issue. The
guns are right there. They’re low hanging fruit. Yeah,
they’re behind the safe. But, you know, I don’t know
the dynamics of the relationship. I know the police
have been out there. I know there is a history of
instability. I’m real concerned about releasing these
weapons back to home, even behind the safe, when he’s
got . . . the ability to, you know, coerce [Lori] somehow
into opening that safe. That concerns me.”
The trial court also stated: “[A]t the end of the day,
is what my responsibility is, is public safety. And

E8

that’s what guides me. And I’m not saying I'm ignoring
her Constitutional Rights or anybody else’s rights. . . .
I have to determine whether it’s appropriate to release
those guns given the facts in this particular case and
the situation.” The court then ruled, “I’m not going to
order the release of the guns to the respondent. I don’t
think it’s appropriate under the circumstances.”
The trial court’s order did not require forfeiture or
destruction of the confiscated firearms. During the
hearing, City’s attorney noted that other options were
available for disposition of the firearms: “The City has
proposed [*10] a few options. Either the guns be held
at another location away from the home. They could
also be sold. The City is certainly interested or willing
to enter into that type of stipulation to sell them
through a third party gun dealer. Or they could be held
in the house if they’re rendered inoperable.”
As to Lori’s claim of a community property interest
in the confiscated firearms, the trial court stated: “I
think there are viable alternatives that need to be
explored. This is the community possession of the
respondent and whether it’s by sale or release to a
separate place. I’m going to let you folks work that out.
So with respect to the request to release the guns back
to [Lori], I’m going to deny that request.”
Thereafter, Lori filed a notice of appeal from the
September 30, 2013 order.
III. DISCUSSION
On appeal, we understand Lori to challenge the
trial court’s order granting City’s petition for
disposition of firearms on two grounds, insufficiency of
the evidence and violation of her Second Amendment
right to keep and bear arms. We will begin our

E9

evaluation of her claims with an overview of the
statutory framework for the confiscation of firearms
from a person who has been detained for examination
[*11] of his or her mental condition and the disposition
of confiscated firearms.
A. The Statutory Framework
“Two firearm statutes come into play when a
person is detained under section 5150 as a danger to
himself [or herself] or others. Section 8103 will
prohibit his [or her] possession of firearms for a fiveyear period.6 Section 81027 authorizes confiscation of
any weapons he [or she] already possesses.” (People v.
Keil (2008) 161 Cal.App.4th 34, 37, 73 Cal. Rptr. 3d
600 (Keil).) Section 8102 also authorizes “possible
forfeiture of weapons belonging to persons detained for
examination under section 5150 because of their
mental condition. [Citations.]” (City of San Diego v.
6 Section 8103, subdivision (f)(1) provides in part: “No person
who has been (A) taken into custody as provided in Section 5150
because that person is a danger to himself, herself, or to others,
(B) assessed within the meaning of Section 5151, and (C)
admitted to a designated facility within the meaning of Sections
5151 and 5152 because that person is a danger to himself, herself,
or others, shall own, possess, control, receive, or purchase, or
attempt to own, possess, control, receive, or purchase any firearm
for a period of five years after the person is released from the
facility.” The person may request a hearing to lift the restriction.
(§ 8103, subd. (f)(3).)
7 Section 8102, subdivision (a) provides in part: “Whenever a
person, who has been detained or apprehended [*12] for
examination of his or her mental condition . . . is found to own,
have in his or her possession or under his or her control, any
firearm whatsoever, or any other deadly weapon, the firearm or
other deadly weapon shall be confiscated by any law enforcement
agency or peace officer, who shall retain custody of the firearm or
other deadly weapon.”

E10

Boggess (2013) 216 Cal.App.4th 1494, 1500, 157 Cal.
Rptr. 3d 644 (City of San Diego).)
As stated in City of San Diego, “‘[s]ection 8102
directly safeguards public health and safety by
allowing law enforcement officers to confiscate any
firearm in the possession or control of a person who is
appropriately detained or apprehended for a mental
examination. Keeping a firearm away from a mentally
unstable person is a reasonable exercise of the police
power. It is not unreasonable to conclude there is a
significant risk that a mentally unstable gun owner
will harm himself [or herself] or others with the
weapon.’ [Citation.]” (City of San Diego, supra, 216
Cal.App.4th at p. 1500.)
The statutory scheme also provides the procedure
for the return of the confiscated firearms to the person
who was detained under section 5150. At the time of
the August 2013 hearing on City’s petition for
disposition of firearms, former section 8102,
subdivision (b) (now § 8102, subd. (b)(2)) provided in
part: “Where the person is released, the professional
person in charge of [*13] the facility, or his or her
designee, shall notify the person of the procedure for
the return of any firearm or other deadly weapon
which may have been confiscated.”
If the law enforcement agency that confiscated the
firearms does not make the firearms available for
return upon release of the detained person, the person
may request a hearing on return of the firearms. (§
8102, subds. (e), (f).) The law enforcement agency may
also request a hearing: “Upon the release of a person
as described in subdivision (b), the confiscating law
enforcement agency shall have 30 days to initiate a
petition in the superior court for a hearing to

E11

determine whether the return of a firearm or other
deadly weapon would be likely to result in
endangering the person or others, and to send a notice
advising the person of his or her right to a hearing on
this issue.” (§ 8102, subd. (c).) “Section 8102 thus
‘places the onus upon law enforcement to initiate the
forfeiture proceeding, and to bear the burden of proof
on the issue of the danger presented by return of the
weapons.’ [Citations.]” (City of San Diego, supra, 216
Cal.App.4th at p. 1500.)
“If, after a hearing, the court determines that the
return of the firearm or other deadly weapon would
likely endanger the person or others, the law
enforcement agency [*14] may destroy the firearm
within 180 days from the date that the court makes
that determination, unless the person contacts the law
enforcement agency to facilitate the sale or transfer of
the firearm to a licensed dealer pursuant to Section
33870 of the Penal Code.” (§ 8102, subd. (h).)
The standard of review for the trial court’s order
granting a petition for disposition of firearms under
section 8102 is substantial evidence. (City of San
Diego, supra, 216 Cal.App.4th at p. 1501.) “In
determining whether a trial court’s ruling is supported
by substantial evidence, the appellate court should
view the whole record in the light most favorable to
the ruling, resolving all evidentiary conflicts and
drawing all reasonable inferences supporting the
court’s decision. [Citation.]” (Ibid.) “We affirm if
‘substantial
evidence
supports
the
court’s
determination that return of the firearms to appellant
would be likely to result in endangering appellant or
other persons.’ [Citation.]” (Keil, supra, 161
Cal.App.4th at p. 38.)

E12

B. Analysis
1. Substantial Evidence
We understand Lori to argue on appeal that the
trial court’s order granting City’s petition for
disposition of firearms and declining to return the
firearms to her is not supported by substantial
evidence. According to Lori, the evidence showed that
she is not prohibited from owning or possessing [*15]
firearms and if the confiscated firearms were returned
to her, she could secure them in a gun safe to prevent
Edward from having unauthorized access. Lori also
offers to have the title to the firearms transferred to
her. In addition, Lori points out that City’s counsel
conceded during the hearing that there is nothing to
prevent her from buying more firearms and bringing
them to the Rodriguez home.
In response, City relies on the statement in City of
San Diego that “‘[t]he court may properly consider
whether the circumstances leading to the section 5150
detention might occur again and whether possession
or control of those confiscated weapons in such
circumstance would pose a risk of danger to appellant
or to others.’ [Citation.]” (City of San Diego, supra, 216
Cal.App.4th at p. 1502.) City asserts that the
undisputed evidence shows that the circumstances
here included Edward’s behavior when Officer
Valentine detained him, as well as Edward’s size and
the prior police responses to the Rodriguez home. City
also asserts that return of the confiscated firearms to
Lori would have “the practical effect of returning them
to Edward,” who is prohibited from accessing firearms.
We begin by noting that section 8102 expressly
provides the procedure for the return of firearms [*16]

E13

confiscated by a law enforcement agency only to the
person who was detained under section 5150. Section
8102 is silent as to the return of the confiscated
firearms to any other person. Accordingly, the only
issue to be decided at a hearing under section 8102,
subdivision (c) is whether return of the firearms to the
previously detained person “would be likely to result
in endangering the person or others.” (§ 8102, subd,
(c); see also id., subd. (h).) On appeal from a trial court
order denying return of confiscated firearms under
section 8102, the reviewing court decides the narrow
issue of whether substantial evidence supports the
trial court’s determination that return of the firearms
to the person who was detained under section 5150
would be likely to result in endangering that person or
other persons. (Keil, supra, 161 Cal.App.4th at p. 38.)
In this case, Edward did not oppose the City’s
petition for disposition of the firearms. The parties
filed a stipulation and order stating that the parties
agreed that “Lori Rodriguez has standing in this
action in that she has at least a community property
interest in the firearms at issue in these proceedings.”
Since the parties stipulated that Lori has standing in
this matter, we will consider whether the trial court’s
order granting City’s petition is supported by [*17]
substantial evidence that return of the firearms to the
Rodriguez home would be likely to result in
endangering Edward or others. (§ 8102, subds. (c), (h).)
Having reviewed the record in the light most
favorable to the trial court’s order (City of San Diego,
supra, 216 Cal.App.4th at p. 1501), we agree with City
that the trial court’s order is supported by substantial
evidence. The evidence showed that there had been
two prior calls of a domestic disturbance at the

E14

Rodriguez home; Lori made the 911 call regarding
Edward’s condition on the day of his detention; Lori
appeared to be afraid of Edward; Edward’s behavior
was bizarre and delusional; Edward had attempted to
break his own thumb; Edward weighed 400 pounds
and had broken free of the gurney restraints; and
medical personnel had requested that a police officer
accompany them in the ambulance transporting
Edward to the hospital. VMC personnel then
determined that Edward was a danger to himself and
others and he was admitted to the hospital pursuant
to sections 5151 and 5152. Moreover, the trial court
was not convinced by Lori’s testimony that she could
safely store the firearms and prevent Edward from
having access to them. “‘A reviewing court neither
reweighs evidence nor reevaluates a witness’s
credibility.’ [Citation.]” [*18] (People v. Albillar (2010)
51 Cal.4th 47, 60, 119 Cal. Rptr. 3d 415, 244 P.3d
1062.)
We therefore conclude that substantial evidence
supports the trial court’s order granting City’s petition
for disposition of firearms under section 8102 on the
ground that return of the confiscated firearms to the
Rodriguez home would be likely to result in
endangering Edward or others.
2. Constitutional Claim
Lori’s chief contention on appeal is that the trial
court’s order granting City’s petition for disposition of
firearms violates her Second Amendment right to keep
and bear arms for home protection. She explains that
“[d]epriving an owner of her own guns deprives her of
the value of the property and means of exercising the
core right of self-defense. [Citation.]” City urges that
Lori’s constitutional and community property rights

E15

may be lawfully impacted by a lawful restriction on
her husband Edward’s property interest in the
confiscated firearms.
At the outset, we note that Lori does not challenge
the trial court’s order as violating Edward’s Second
Amendment rights. Constitutional challenges to the
trial court’s refusal under section 8102 to return
confiscated firearms to a person who was detained due
to his or her mental condition have been rejected. (See
Rupf v. Yan (2000) 85 Cal.App.4th 411, 427-428, 102
Cal. Rptr. 2d 157; People v. One Ruger .22-Caliber
Pistol (2000) 84 Cal. App. 4th 310, 312, 100 Cal. Rptr.
2d 780.)
Lori’s constitutional claim involves only her own
Second Amendment right [*19] to keep and bear arms.
For several reasons, we determine that Lori has not
shown that her Second Amendment rights were
violated by the trial court’s September 30, 2013 order
granting City’s petition for disposition of firearms.
First, Lori acknowledges in her opening brief that
the trial court’s order does not bar her from acquiring
new firearms, noting the trial court’s “uncontradicted
finding . . . that Lori cannot be prohibited from
acquiring new firearms.” Lori further acknowledges
that under section 8101, she may not allow Edward
access to any new firearms that she may acquire.
Section 8101 provides: “(a) Any person who shall
knowingly supply, sell, give, or allow possession or
control of a deadly weapon to any person described in
Section 8100 or 8103 shall be punishable by
imprisonment pursuant to subdivision (h) of Section
1170 of the Penal Code, or in a county jail for a period
of not exceeding one year, by a fine of not exceeding
one thousand dollars ($1,000), or by both the fine and

E16

imprisonment. [¶] (b) Any person who shall knowingly
supply, sell, give, or allow possession or control of a
firearm to any person described in Section 8100 or
8103 shall be punished by imprisonment pursuant to
subdivision (h) of Section 1170 of the Penal Code for
two, three, or four years.”
Second, we understand Lori to argue that she has
a Second Amendment right to return of [*20] the
particular firearms that were confiscated under
section 8102 for home protection. However, Lori has
not provided any legal authority for the proposition
that the spouse of a person whose firearms were
confiscated under section 8102 has a Second
Amendment right to the return of those confiscated
firearms for home protection. In her briefing, she
generally argues that the United States Supreme
Court expanded Second Amendment rights in District
of Columbia v. Heller (2008) 554 U.S. 570, 128 S. Ct.
2783, 171 L. Ed. 2d 637 (Heller) and McDonald v. City
of Chicago (2010) 561 U.S. 742, 130 S. Ct. 3020, 177 L.
Ed. 2d 894 (McDonald).
However, the Supreme Court decisions in Heller
and McDonald did not state that the Second
Amendment right to keep and bear arms extends to
keeping and bearing either any particular firearms or
firearms that have been confiscated from a mentally
ill person. Moreover, the Heller and McDonald
decisions may be read to the contrary.
The McDonald court reiterated that "[i]n Heller, we
held that the Second Amendment protects the right to
possess a handgun in the home for the purpose of selfdefense." (McDonald, supra, 561 U.S. 742, 791.)
However, the court also stated: “It is important to keep
in mind that Heller while striking down a law that

E17

prohibited the possession of handguns in the home,
recognized that the right to keep and bear arms is not
‘a right to keep and carry any weapon whatsoever in
any manner whatsoever and for whatever purpose.’
[Citation.] We made [*21] it clear in Heller that our
holding did not cast doubt on such longstanding
regulatory measures as ‘prohibitions on the possession
of firearms by felons and the mentally ill,’ . . . .
[Citation.]” (McDonald, supra, 561 U.S. at p. 786,
italics added.)
Third, we note that the trial court’s order does not
actually require forfeiture or destruction of the
confiscated firearms. Both the trial court and City’s
attorney suggested there were other viable options for
disposition of the firearms, such as sale or storage
outside the home.
Finally, we consider whether the provisions of
Penal Code section 33850 et seq. impact Lori’s Second
Amendment claim. Lori has acknowledged that Penal
Code section 33850 provides a procedure for the return
of firearms in police custody to persons who claim
ownership of the firearms.
Under Penal Code section 33850, a “person who
claims title to any firearm” in law enforcement custody
may seek the return of that firearm. (Pen. Code, §
33850, subd. (a).)8 The person seeking return of any
firearms must file an application for a Penal Code
8 Penal

Code section 33850, subdivision (a) provides in part:
“Any person who claims title to any firearm that is in the custody
or control of a court or law enforcement agency and who wishes
to have the firearm returned shall make application for a
determination by the Department of Justice as to whether the
applicant is eligible to possess a firearm.”

E18

section 33865 notification that specifies the make and
model of the firearms that are being sought and
provides detailed information about any handguns.
(Pen. Code, §§ 33850, 33865, subd. (c)(3).) The firearms
cannot be returned by a court or law enforcement
agency unless the person seeking them obtains a
Penal Code section 33865 notification that the person
is eligible to [*22] possess a firearm and “the firearm
has been recorded in the Automated Firearms System
in the name of the individual who seeks its return.”
(Pen. Code, § 33855, subd. (b).)
After oral argument, we asked the parties to
provide supplemental briefing with respect to the
impact of Penal Code section 33850 et seq. on Lori’s
Second Amendment claim, by responding to the
following questions: (1) “The record on appeal includes
a copy of a May 8, 2013 Department of Justice Bureau
of Fireams notice stating that Lori Rodriguez is
‘eligible to both possess and purchase firearms as of
the date the [personal firearms eligibility] check was
completed.’ What evidence in the record, if any, shows
that Rodriguez either has or has not sought return of
the confiscated firearms under the procedure provided
by Penal Code section 33850 et seq?”; (2) “Assuming
that Rodriguez has not sought return of the
confiscated firearms under Penal Code section 33850
et seq., what is the impact on her claim that the trial
court’s order of September 30, [*23] 2013, violates her
rights under the Second Amendment?”; and (3)
“Assuming that Rodriguez has sought return of the
confiscated firearms under Penal Code section 33850
et seq., what is the impact on her claim that the trial
court’s order of September 30, 2013, violates her rights
under the Second Amendment?”

E19

In their supplemental briefing, the parties agree
that the record does not indicate that Lori has sought
return of the confiscated firearms under the procedure
provided by Penal Code section 33850 et seq. We
understand Lori to contend that her failure to utilize
the firearms return procedure provided by Penal Code
section 33850 et seq. has no impact on her Second
Amendment claim, for three reasons. First, Lori
asserts that she properly sought return of the
confiscated firearms by intervening in City’s petition
for disposition of firearms under section 8102. Second,
Lori maintains that she may raise a constitutional
claim without exhausting the administrative remedy
provided by Penal Code section 33850 et seq. Finally,
Lori appears to argue that the trial court proceedings
on City’s section 8102 petition precluded her from
seeking return of the confiscated firearms under Penal
Code section 33850.
City responds that whether or not Lori has sought
return of the confiscated firearms under Penal Code
section 33850 et seq. has no impact on her claim that
the trial court’s September 30, 2013 order violates her
Second Amendment rights. City notes that prior [*24]
to amendment in 2013, section 8102 was silent as to
Penal Code section 33850 et seq.,9 and emphasizes its
9 As

amended in 2013, section 8102, subdivision (b) provides:
“(1) Upon confiscation of any firearm or other deadly weapon from
a person who has been detained or apprehended for examination
of his or her mental condition, the peace officer or law
enforcement agency shall issue a receipt describing the deadly
weapon or any firearm and listing any serial number or other
identification on the firearm and shall notify the person of the
procedure for the return, sale, transfer, or destruction of any
firearm or other deadly weapon which has been confiscated. A
peace officer or law enforcement agency that provides the receipt

E20

position that the trial court’s order is constitutional
because substantial evidence supports the trial court’s
finding that return of the confiscated firearms would
likely endanger Edward and others.
The parties’ supplemental briefing confirms that
Lori has not sought return of the confiscated firearms
under the procedure provided by Penal Code section
33850 et seq., although the firearms remain in the
custody of law enforcement and Lori has obtained
notification from the California Department of Justice
Bureau of Firearms that she is eligible to both possess
and purchase firearms. Lori has not provided any
authority for the proposition that trial court
proceedings on a section 8102 petition preclude a
person who claims title to the confiscated firearms
from seeking their return under Penal Code section
33850 et seq. Moreover, we believe that the record on
appeal shows that the procedure provided [*26] by
section 33850 et seq. for return of firearms in the

and notification described in Section 33800 of the Penal Code
satisfies the receipt and notice requirements. [¶] (2) If the person
is released, the professional person in charge of the facility, or his
or her designee, shall notify the person of the procedure for the
return of any firearm or other deadly weapon which may have
been confiscated. [¶] (3) Health facility personnel [*25] shall
notify the confiscating law enforcement agency upon release of
the detained person, and shall make a notation to the effect that
the facility provided the required notice to the person regarding
the procedure to obtain return of any confiscated firearm. [¶] (4)
For purposes of this subdivision, the procedure for the return,
sale, or transfer of confiscated firearms includes the procedures
described in this section and the procedures described in Chapter
2 (commencing with Section 33850) of Division 11 of Title 4 of
Part 6 of the Penal Code.” (Stats. 2013, ch. 747, § 2.)

E21

possession of law enforcement remains available to
Lori.
We therefore determine that Lori has failed to
show that the trial court’s September 30, 2013 order
violates the Second Amendment by precluding her
from keeping firearms for home protection. In the
absence of any evidence that Lori’s Second
Amendment right to keep and bear arms was actually
violated by the trial court’s September 30, 2013 order
granting City’s petition for disposition of firearms
under section 8102, we conclude that her Second
Amendment claim lacks merit.
Having also determined that the order may be
affirmed under section 8102 because the order is
supported by substantial evidence that return of the
confiscated firearms to the Rodriguez home would be
likely to result in endangering Edward or others, we
will affirm the order.
IV. DISPOSITION
The September 30, 2013 order is affirmed.
BAMATTRE-MANOUKIAN, ACTING P. J.
WE CONCUR:
MIHARA, J.
GROVER, J

APPENDIX F
Constitutional and Statutory
Provisions Involved
Second Amendment
A well regulated Militia, being necessary to the security of a free State, the right of the people to keep
and bear Arms, shall not be infringed.
Fourth Amendment
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or affirmation, and particularly describing the place to be searched, and the persons or
things to be seized.
Fifth Amendment
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War or public danger; nor shall
any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for
public use, without just compensation.
Fourteenth Amendment, § 1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
(F1)

F2

citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United States; nor shall any State deprive
any person of life, liberty, or property, without due process of law; nor deny to any person within its jurisdiction the equal protection of the laws.
California Penal Code § 25135
(a) A person who is 18 years of age or older, and
who is the owner, lessee, renter, or other legal occupant of a residence, who owns a firearm and who
knows or has reason to know that another person also
residing therein is prohibited by state or federal law
from possessing, receiving, owning, or purchasing a
firearm shall not keep in that residence any firearm
that he or she owns unless one of the following applies:
(1) The firearm is maintained within a locked
container.
(2) The firearm is disabled by a firearm safety
device.
(3) The firearm is maintained within a locked
gun safe.
(4) The firearm is maintained within a locked
trunk.
(5) The firearm is locked with a locking device
as described in Section 16860, which has
rendered the firearm inoperable.
(6) The firearm is carried on the person or
within close enough proximity thereto that
the individual can readily retrieve and use
the firearm as if carried on the person.

F3

(b) A violation of this section is a misdemeanor.
(c) The provisions of this section are cumulative,
and do not restrict the application of any other law.
However, an act or omission punishable in different
ways by different provisions of law shall not be punished under more than one provision.
California Penal Code § 33850
(a) Any person who claims title to any firearm that
is in the custody or control of a court or law enforcement agency and who wishes to have the firearm returned shall make application for a determination by
the Department of Justice as to whether the applicant
is eligible to possess a firearm. The application shall
include the following:
(1) The applicant’s name, date and place of
birth, gender, telephone number, and complete address.
(2) Whether the applicant is a United States
citizen. If the applicant is not a United
States citizen, the application shall also include the applicant’s country of citizenship
and the applicant’s alien registration or I-94
number.
(3) If the firearm is a handgun, and commencing January 1, 2014, any firearm, the firearm’s make, model, caliber, barrel length,
handgun type, country of origin, and serial
number, provided, however, that if the firearm is not a handgun and does not have a
serial number, identification number, or
identification mark assigned to it, there

F4

shall be a place on the application to note
that fact.
(4) For residents of California, the applicant’s
valid California driver’s license number or
valid California identification card number
issued by the Department of Motor Vehicles.
For nonresidents of California, a copy of the
applicant’s military identification with orders indicating that the individual is stationed in California, or a copy of the applicant’s valid driver’s license from the applicant’s state of residence, or a copy of the applicant’s state identification card from the
applicant’s state of residence. Copies of the
documents provided by non-California residents shall be notarized.
(5) The name of the court or law enforcement
agency holding the firearm.
(6) The signature of the applicant and the date
of signature.
(7) Any person furnishing a fictitious name or
address or knowingly furnishing any incorrect information or knowingly omitting any
information required to be provided for the
application, including any notarized information pursuant to paragraph (4), shall be
guilty of a misdemeanor.
(b) A person who owns a firearm that is in the custody of a court or law enforcement agency and who
does not wish to obtain possession of the firearm, and
the firearm is an otherwise legal firearm, and the person otherwise has right to title of the firearm, shall be

F5

entitled to sell or transfer title of the firearm to a licensed dealer.
(c) Any person furnishing a fictitious name or address, or knowingly furnishing any incorrect information or knowingly omitting any information required to be provided for the application, including any
notarized information pursuant to paragraph (4) of
subdivision (a), is punishable as a misdemeanor.
California Penal Code § 33885
In a proceeding for the return of a firearm seized
and not returned pursuant to this chapter, where the
defendant or cross-defendant is a law enforcement
agency, the court shall award reasonable attorney’s
fees to the prevailing party.

